28
CERTIFICATE OF COMPLIANCE
This brief complies with the type-volume limitation of S. Court Rule 33
because it contains a total of 6550 words, (Introduction through Conclusion), and
excludes those words not counted under the Rules. This brief complies with the
typeface using requirements of Supreme Court Rule 33 and the type style
requirements of Rule 33 because this brief has been prepared in a proportionally
spaced typeface using Microsoft Word in Times New Roman 14.
/s/
David G. Barger
Counsel for Petitioner

ACTIVE 54282591v1

